BEFORE THE UNITED STATES SUPREME COURT
No::
:21A251
Supreme: Cot r;:, U.S.
F,i

WENDY ALISON NORA,
Movant-Prospective Petitioner,

OCT 24 n
OFFICE Gi-Th

V.
THE SUPREME COURT OF MINNESOTA OFFICE OF
LAWYER PROFESSIONAL RESPONSIBILITY,
Prospective Respondent.

SECOND MOTION FOR EXTENSION OF THIRTY (30) DAYS'
ADDITIONAL TIME TO FILE PETITION FOR WRIT OF CERTIORARI UNDER
28 U.S.C. SEC. 1257(a) AND SUPREME COURT RULE 13.3
FROM OCTOBER 26, 2019 TO NOVEMBER 25, 2019

TO: The Honorable Neil M. Gorsuch
Circuit Justice for the Eighth Circuit
1 First Street, NE
Washington, DC 20543
JURISDICTIONAL STATEMENT
Wendy Alison Nora ("Movant") intends to file her Petition for Writ of
Certiorari to the Minnesota Supreme Court under 28 U.S.C. sec. 1257(a) and
Supreme Court Rule 13.3. This Motion is brought pursuant to Rules 21, 22 and
13.5 of the Rules of the United States Supreme Court. The Opinion and Order of
the Minnesota Supreme Court was entered on May 22, 2019 (the Reciprocal
Discipline Order, Exhibit 1 submitted to the Court on September 25, 2019) and is
based on the Opinion and Order of the Wisconsin Supreme Court entered on March
30, 2018 (the Wisconsin Suspension Order, Exhibit 2 submitted to the Court on

1

F-RK

September 25, 2019), which was modified on June 12, 2018'.
Movant sought rehearing before the Minnesota Supreme Court on June 3,
2019 and rehearing was denied on June 28, 2019 (Exhibit 3). The original due date
of Petition for Writ of Certiorari was September 26, 2019. This Court granted
Movant's first Motion for Extension of Time to file the Petition for Writ of Certiorari
(the "Petition") for thirty (30) additional days from September 26, 2019 to October
28, 2019 (because October 26, 2019 is a Saturday), for good cause shown therein.
This Second Motion for Extension of Time is timely filed by submission to the Court
on October 24, 2019 and is within the time allowed for a discretionary extension of
time to file the Petition under Rule 13.5.
NATURE OF THE REQUEST
Movant now seeks an additional second extension of time to file the Petition
for the reasons stated herein. Movant incorporates by reference herein, Exhibits 17 submitted to this Court on September 25, 2019 which appear on the Court's
electronic docket under the category of "Lower Court Orders/Opinions" although
Exhibits 4, 5, 6, and 7 consist of documents necessary to the understanding of the
grounds for the Petition. For the convenience of Court, Section F.1. below recites
the reasons for the First Motion for Extension of Time to File the Petition and
Section F.2. provides the present circumstances from which the need for the Second

Movant previously filed her Petition for Writ of Certiorari to the Wisconsin
Supreme Court in Nora v. Wisconsin Office of Lawyer Regulation, No. 18-538, which was
denied on December 3, 2018. Movant sought rehearing on December 28, 2018, which was
denied on February 12, 2019.
2

Motion for Extension arises.
CAUSE FOR THE REQUESTED EXTENSION
Status of the proceedings
The status of the proceedings is set forth in the Jurisdictional Statement.
The Minnesota Office of Lawyers Professional Responsibility
(MOLPR) and the Minnesota Supreme Court violated Movant's Due
Process Rights by ignoring uncontroverted evidence of movant's
innocence of Count Two of the Amended Complaint in the Wisconsin
proceedings when the Minnesota Supreme Court imposed the May
22, 2019 Reciprocal Discipline Order.
The issues for which Movant seeks review is whether the use of forged
documents, authenticated by perjured affidavits, in quasi-criminal lawyer
disciplinary proceedings' violated her Due Process Rights guaranteed by the
Fourteenth Amendment to the Constitution of the United States. As a direct result
of forged documents, authenticated by perjured affidavits, upon which the
Wisconsin Supreme Court relied, the Minnesota Supreme Court found:
On August 25, 2009, D.P. informed Nora, via a 4:20 p.m. email, that RFC
[Residential Funding Company, LLC] had rejected her counteroffer and that
"no settlement offer existed." The next morning, Nora faxed a letter and a
copy of the Agreement to Judge J.C., who was presiding over the foreclosure
action. The letter said that as a result of the Agreement, the proceedings in
the foreclosure action " 'are stayed.' " Her letter implied that, even if the
Agreement was not in effect, the proceedings must be stayed because an
agreement was imminent. (Opinion and Order of the Minnesota Supreme
Court, page 4, Exhibit 1, submitted to the Court on September 25, 2019)
Movant never took the position in the foreclosure action involving her

In the Matter of John Ruffalo, Jr., Petitioner, 390 U.S. 544, 551, 88 S.Ct. 1222, 20
L.Ed.2d 117 (1968) holds, "These are adversary proceedings of a quasi-criminal nature."

3

personal residence (to which D.P.'s purported email pertained) was settled nor did
she "imply" that a settlement agreement was imminent. Rather, she truthfully
reported to Judge J.C. by facsimile transmitted at 9:39 a.m. on August 26, 2009
that she had executed a Loan Repayment Agreement with GMAC Mortgage, LLC
(GMACM) and that GMACM3 had informed her that the Loan Repayment
Agreement would stay the foreclosure action for a period of four (4) months and that
settlement negotiations were pending. See Exhibit 4, which is an excerpt of
Appendix 11 to the Minnesota Supreme Court displaying Appendix 4, Exhibit A to
the Wisconsin Supreme Court, which is in the record of both disciplinary actions.
Movant's August 26, 2009 facsimile (Exhibit 4) did not represent that there
was a settlement agreement nor did the facsimile imply that a settlement
agreement was imminent. The August 26, 2009 facsimile truthfully represented
that Movant had executed and submitted the Loan Repayment Agreement to

Movant did not know the relationship between GMACM and RFC on August 26,
2009 and had no information that D.P. represented GMACM, a fact which was never
established even at the evidentiary hearing in the disciplinary case in which D.P. was
called as a witness by OLR. D.P. testified that his firm was asked to represent RFC by
"GMAC-RESCAP" 167:10-17 (Appendix 5 in the Minnesota Disciplinary Case):
GMAC ResCap hired my firm to represent
10
A
Residential Funding in the case.
11
12
Q Do you know if that's an LLC, a corporation?
13
A Residential Funding?
14
Q No. GMAC ResCap.
15
A I can't recall.
16
Q Is it an existing entity?
17
A I don't know at this time.
Upon information and belief, there is no known entity in existence or ever in existence by the
name of GMAC-RESCAP.
4

GMACM and that she had been informed by GMACM that the foreclosure action
would be stayed for a period of four (4) months.' Id. After OLR's Motion for
Summary Judgment was granted by the referee on May 20, 2015, based on an
uncharged allegation that Movant knew before she sent the August 26, 2009

truthful facsimile to Judge J.C. that D.P.'s "client" had rejected a "settlement
agreement" at by email at 4:20 p.m. on August 25, 2009, which she did not receive
until it was transmitted to her by D.P. as a "forwarded" email on August 26, 2009 at
11:21 a.m. (Exhibit 5), Movant moved for relief from Summary Judgment because
she was not charged with having and did not have foreknowledge of D.P. litigation
position on behalf of his client, RFC, and because the Loan Repayment Agreement
was between Movant and GMACM.
The authenticity of the paper version of the August 25, 2009 email attached
to the attorney-grievant's April 24, 2014 Affidavit has been challenged as a forgery
(Exhibit 6), but OLR refused to produce the electronic form of the purported August

4 Because Movant made no misrepresentation to Judge J.C., she moved for
Judgment on the Pleadings and submitted a copy of the August 26, 2009 facsimile into the
record as Exhibit A in her February 25, 2014 Response to OLR's Amended Complaint
which was submitted to the Minnesota Office of Lawyers Professional Responsibility as
Appendix 4, Exhibit A and to the Minnesota Supreme Court as Appendix 11, pages 86-100.
See Exhibit 4 attached hereto.

5 Almost two (2) years later, on March 29, 2017, the Wisconsin Supreme Court held
in State ex rel. Universal Processing Servs. of Wis., LLC v. Circuit Court of Milwaukee
Cnty., ¶77, 374 Wis.2d 26, 63, 892 N.W.2d 267 (Wis., 2017) that a referee cannot
constitutionally enter final, dispositive judgments. A Motion to Vacate the Summary
Judgment Order entered by a referee without constitutionally delegated, judicial authority
is pending before the Wisconsin Supreme Court under Wis. Stat. sec. 806.07(2)(d), which is
equivalent to Fed. R. Civ. P. 60(b)(4) pursuant to Wis. Stat. sec. 809.64.
5

25, 2009 email upon the Movant's discovery request, arguing that the referee's May
20, 2015 Summary Judgment Order was final and the challenged email was
"irrelevant". The withholding and concealing of the exculpatory evidence of the
electronic copy of the challenged email from Movant and the courts is prosecutorial
misconduct similar to the concealment of exculpatory evidence in criminal cases'.
C. The questions for review of Count Two
The questions to be proposed for review by this Court on Count Two and a
brief statement of the legal authority in support of the intended Petition are set
forth below:
1. Whether Movant was denied Due Process guaranteed by the Fourteenth
Amendment to the Constitution of the United States under Rule 12(d) of the
Minnesota Rules of Lawyers Professional Responsibility (MRLPR) when the
Minnesota Supreme Court concluded that the Wisconsin lawyer disciplinary
proceedings were "not unfair" despite substantial evidence that the Wisconsin
lawyer disciplinary proceedings were based on forged documents, authenticated by
perjured affidavits', produced by the Wisconsin Office of Lawyer Regulation (OLR)

6 All exculpatory evidence is subject to civil discovery in Wisconsin lawyer
disciplinary proceedings.

D.P. authenticated a paper copy of challenged email and one of the purported
attachments in his April 24, 2014 affivavit upon which OLR relied in its Motion for
Summary Judgment. Exhibit 5 attached hereto.
Please note that Movant did not sue D.P., his law firm, or the other Wisconsin
lawyers and law firms for Ten Billion Dollars in the RICO actions. The Wisconsin lawyers
and law firms were specifically excluded from the punitive damages claims in the RICO
actions. See Exhibit 7 at paragraph 9, which is an excerpt of the operative complaint in the
RICO action in the United States District Court for the Western District of Wisconsin Case
6

in the proceedings for which reciprocal discipline was imposed by the Supreme
Court of Minnesota.
In Napue v. Illinois, 360 U.S. 264, 269-270, 79 S.Ct. 1173, 3 L.Ed.2d 1217
(1959), the United States Supreme Court held that it is a Due Process violation for
the prosecution to obtain a conviction on testimony it knew to be perjured. Last
term, this Court reiterated that the use of fabricated evidence in a criminal case is
Due Process violation in McDonough v. Smith, No. 18-485 .
Movant seeks relief by certiorari from the use of and reliance upon fabricated
evidence in the Wisconsin proceedings upon which the Minnesota Supreme Court
unjustly imposed Reciprocal Discipline.
2. Whether Movant's Due Process Rights were violated by the Minnesota
Supreme Court when it concluded that it would not be unjust to impose reciprocal
discipline on the Movant when Movant produced uncontroverted evidence that she
made no misrepresentation to Judge J.C. and that her conviction on Count Two was
the result of forged evidence upon which OLR relied and evidence of the forgery was
concealed by prosecutorial misconduct.
Movant's right to practice her occupation cannot be taken in violation of her
Due Process Rights. ("A State cannot exclude a person from the practice of law or
from any other occupation in a manner or for reasons that contravene the Due
Process or Equal Protection Clause of the Fourteenth Amendment" Schware v.

No. 10-cv-748. The complete case caption is included in the excerpt, showing all of the
parties defendant.
7

Board of Bar Examiners of the State of New Mexico, 353 U.S. 232, 238-239, 77 S.Ct.
752, 1 L.Ed.2d 796, 64 A.L.R.2d 288, (1957). At note 5, in Schware, this Court
observed, "5. We need not enter into a discussion whether the practice of law is a
`right' or 'privilege.' Regardless of how the State's grant of permission to engage in
this occupation is characterized, it is sufficient to say that a person cannot be
prevented from practicing except for valid reasons. Certainly the practice of law is
not a matter of the State's grace. Ex parte Garland, 4 Wall. 333, 379, 18 L.Ed. 366."
Movant also has a constitutionally protected interest in her reputation as a
officer of the court who did not make a misrepresentation to Judge J.C. Due
Process protection of a person's good name, reputation, honor, or integrity has been
recognized in by this Court in Wisconsin v. Constantineau, 400 U.S. 433, 437, 91
S.Ct. 507, 27 L.Ed.2d 515 (1971), which held, "Where a person's good name,
reputation, honor, or integrity is at stake because of what the government is doing
to him, notice and an opportunity to be heard are essential." See also, Board of
Regents of State Colleges v. Roth, 408 U.S. 564, 573, 92 S.Ct. 2701, 33 L.Ed.2d 548
(1972).
The Wisconsin and Minnesota Supreme Courts falsely found that Movant
made a misrepresentation to to Judge J.C. based on fabricated evidence, which this
Court reiterated last term in McDonough v. Smith, No. 18-485 is a Due Process
violation. OLR knows and MOLPR should know that D.P. produced a forged
document purporting that he sent an email to Movant on August 25, 2009 at 4:20
p.m. Moreover, uncontroverted evidence shows that Movant did not make a
8

statement to Judge J.C. that the case was settled. See Exhibit 4. OLR's adopted
Movant's litigation opponent's mischaracterization of Movant's legal position that
the temporary Loan Repayment Agreement was a "settlement". There is nothing in
the attached Exhibit 4 which states that there was a "settlement" or which suggests
that "a settlement was imminent". Exhibit 4 truthfully represented to Judge J.C.
that GMACM had agreed to stay the foreclosure action for a period of up to four (4)
months pending "settlement negotiations".
The Suspension Order of the Wisconsin Supreme Court and Reciprocal
Discipline Order of the Minnesota Supreme Court are based on fabricated evidence
in violation of Movant's Due Process Rights. Movant received an email from D.P.
on August 26, 2009 at 11:21 a.m. which purported to forward an email previously
sent to her on August 25, 2009 at 4:20 p.m., which she did not receive until August
26, 2009 at 11:21 a.m. See Exhibits 4 and 5. There is substantial evidence that
Exhibit B attached to Exhibit 5 is a forgery which has been concealed by
prosecutorial misconduct.
D. Movant's Due Process Rights were violated in the Wisconsin
proceedings in her conviction of violations of SCR 20:3.1(a)(3) in
Counts One, Three and Four and again, when the Minnesota
Supreme Court entered its Reciprocal Discipline Order.
The Minnesota Supreme Court did not consider the voluminous documentary
record presented to establish that the Wisconsin proceedings were unfair and that
the imposition of reciprocal discipline would be unjust as required by Rule 12(d) of
the Minnesota Rules of Lawyers Professional Responsibility, which provides:

9

RLPR 12(d)
Reciprocal Discipline. Upon learning from any source that a lawyer
licensed to practice in Minnesota has been publicly disciplined or is subject to
public disciplinary charges in another jurisdiction, the Director may
commence an investigation and, without further proceedings, may file a
petition for disciplinary action in this Court. A lawyer subject to such charges
or discipline shall notify the Director. If the lawyer has been publicly
disciplined in another jurisdiction, this Court may issue an order directing
that the lawyer and the Director inform the Court within thirty (30) days
whether either or both believe the imposition of the identical discipline by
this Court would be unwarranted and the reasons for that claim. Without
further proceedings this Court may thereafter impose the identical
discipline unless it appears that discipline procedures in the other
jurisdiction were unfair, or the imposition of the same discipline
would be unjust or substantially different from discipline warranted
in Minnesota. If this Court determines that imposition of the identical
discipline is not appropriate, it may order such other discipline or such other
proceedings as it deems appropriate. Unless the Court determines otherwise,
a final adjudication in another jurisdiction that a lawyer had committed
certain misconduct shall establish conclusively the misconduct for purposes of
disciplinary proceedings in Minnesota. (Emphasis added.)
Movant is protected by the Due Process Clause of the Fourteenth
Amendment to the Constitution of the United States from the imposition of
reciprocal discipline by the Supreme Court of Minnesota based on Due Process
violations in the Wisconsin disciplinary proceedings, which were, in part, based on
forged documents, authenticated by perjured affidavits and which were otherwise
obtained in violation of Movant's Due Process Rights and as punishment for the
lawful exercise of her Petition Rights for the filing of the actions which form the
basis of the charges in Counts One, Three and Four.
E. The importance of the issues
Movant is actually innocent of the charges upon which the Wisconsin

10

Suspension Order was entered and for which the Minnesota Supreme Court ordered
reciprocal discipline. The Suspension Order and the Reciprocal Discipline Order
are the result of violations of Movant's Fourteenth Amendment Rights to Due
Process. The is a serious nation-wide issue involving frauds being committed on
state and federal (mostly often bankruptcy) courts for which lawyers representing
the interests of homeowners are being sanctioned for attempting to bring to the
attention of the courts and the lawyers participating in and even perpetrating the
challenged frauds and their clients purporting to have standing to proceed in
foreclosure proceedings based on false pleadings, based on forged documents,
authenticated by perjured testimony. See, e.g. Nora v. Wisconsin Office of Lawyer
Regulation, No. 18-538, rehearing denied on February 19, 2019, and Petition for
Rehearing in Rodriguez v. Bank of America, NA., No. 18-723, rehearing denied on
April 15, 2019.
F. The need for the further requested extension
The issues in this case for which review is sought are complex due to the
extent of violations of Due Process which prevented Movant from being heard in
her defense.
1. The First Motion for Extension of Time to File Petition
In her First Motion for Extension of Time to File the Petition, Movant
explained that the Appendix materials which are not her original filings cannot
easily be re-formatted and additional time is needed and that it is not possible to
provide the optimal documentary record showing "when the federal questions
11

sought to be reviewed were raised; the method or manner of raising them and the
way in which they were passed on by those courts; and pertinent quotations of
specific portions of the record or summary thereof, with specific reference to the
places in the record where the matter appears (e. g., court opinion, ruling on
exception, portion of court's charge and exception thereto, assignment of error), so
as to show that the federal question was timely and properly raised" under
Supreme Court Rule 14.1(g)(i) without the additional time requested by this Motion
for Extension of Time to File Petition for Certiorari. Additionally, some of the other
material to be included in the Appendix that the petitioner believes essential to
understand the petition under Supreme Court Rule 14.1(i)(vi) which are not her
original creation are even more difficult to format and may require outsourcing to
another company with specialized technology.
2. Circumstances which support the request for the Second
Motion for Extension of Time to File the Petition
Movant was injured when she slipped and fell on ice on January 17, 2017 and
suffered from Mild Traumatic Brain Injury (mTBI), also known as Post-Concussion
Syndrome, which Movant has been informed and believes, can have a residual effect
of causing a mild cognitive impairment from extensive exposure to blue light
emanating from computer screens. Movant's mild cognitive impairment manifested
itself at the end of September, 2019 when she miscounted the days remaining for
filing of her intended Petition for Certiorari to the Seventh Circuit Court of Appeals
(see 19A130) by one day and this Court was lost jurisdiction over the Petition and

12

returned her Petition in that matter as untimely filed. Movant seeks additional
time to file her Petition in the instant matter so that she can limit her exposure to
computer screens to the maximum amount of time allowed by Rule 13.5.
REASONS FOR GRANTING THE EXTENSION
I. Movant's Petition will raise important issues for review.
Movant seeks to have this Court consider granting the Writ of Certiorari to
review the unconstitutional Reciprocal Discipline Order imposed by the Minnesota
Supreme Court based on unconstitutional proceedings in Wisconsin which violated
Movant's Due Process Rights and from which relief is pending before the Wisconsin
Supreme Court by Motion to Vacate under Wis. Stat. sec. 806.07(d) for the
unconstitutional delegation of judicial authority to an unelected referee pursuant to
Wis. Stat. sec. 809.64. The requested extension will allow her Petition to be
prepared and filed. If the Court believes that the Petition should be granted to
clarify the extent of attorneys' Due Process Rights to be free from the use of forged
documents and prejured testimony in disciplinary proceedings, it will have the
opportunity to do so in this case.
II. If the extension is not granted, Movant will lose her opportunity to
have her Petition considered by the Court, but the opposing party will not
suffer any loss if the extension is granted.
This requested extension for an additional period of thirty (30) days to file
the Petition is unfortunately necessary despite Movant's best efforts to prepare and
file her Petition on or before October 28, 2019 because extensive exposure to
computer screens is impairing her cognition. If the requested second extension is
13

granted, Movant will be able to limit her screen time and have improved cognitive
function for preparing the Petition. If the extension is not granted, Movant will lose
her right to file her Petition which is terminal. If the extension is granted, the
opposing party will suffer no loss whatsoever because the Reciprocal Discipline
Order has not been stayed. This Court's processes will be delayed by an additional
thirty (30) days.
CONCLUSION
The Circuit Justice is asked to exercise his discretion to allow Movant to file
her Petition on or before November 25, 2019 for good cause shown.
Dated at Madison, Wisconsin this 24th day of October, 2019.
Respectfully submitted,
AN IMAGE OF THE SIGNATURE BELOW SHALL HAVE THE SAME FORCE AND
EFFECT AS THE ORIGINAL

Wendy Alison Nora*, in propria persona
c/o ACCESS LEGAL SERVICES, LLC**
310 Fourth Street South, Suite 5010
Minneapolis, Minnesota 55415
VOICE (612) 333-4144
FAX (612) 206-3170
accesslegalservices@gmail.com
* Not admitted to practice law in Minnesota or Wisconsin
**Providing research, investigative, technical,
document and filing services upon the request
of and at the direction of qualified attorneys in
all U.S. states, except the State of Wisconsin

14

